                           SOCIAL SECURITY
                            Office of the Inspector General
                                 November 6, 2001


The Honorable Charles E. Grassley
Ranking Minority Member
Committee on Finance
United States Senate
Washington, D.C. 20510

Dear Senator Grassley:

Thank you for your September 24, 2001 inquiry concerning the Social Security
Administration's (SSA) SmartPay program. We share your concerns that the
Government may be paying for Federal employees’ personal purchases made through
the unauthorized use of Government charge cards.

In responding to your questions, we relied on information from a prior audit,
investigations of employees who committed unauthorized use of Government charge
cards, and information we obtained from SSA representatives responsible for
monitoring SSA’s SmartPay program. The enclosed report contains information related
to

   ¨ instances of employees who have been investigated and disciplined for misusing
     the charge cards;

   ¨ details of audits and investigations my Office has conducted regarding the use of
     the charge cards;

   ¨ details of any planned or ongoing Office of the Inspector General audits and
     investigations of charge card misuse; and

   ¨ recommendations to correct any program weaknesses.

We appreciate your interest in SSA’s SmartPay program. We will continue to keep you
apprised of SSA’s and our efforts to ensure instances of charge card misuse are
minimized.




          SOCIAL SECURITY ADMINISTRATION          BALTIMORE MD 21235-0001
Page 2 -The   Honorable   Charles   E. Grassley

If you have any questions concerning this matter, please call me or have your staff
contact Richard A. Rohde, Special Agent-in-Charge    for External Affairs, at
41 0-966-1722.

                                                  Sincerely,



                                                        viA
                                        l   /
                                                  James G. Huse, Jr.
                                                  Inspector General of Social Security

Enclosure
 CONGRESSIONAL RESPONSE
        REPORT

The Social Security Administration’s
        SmartPay Program
             A-13-02-22059




           NOVEMBER 2001
                                                                     Background
In 1998, the General Services Administration (GSA) awarded five contracts that provide
Federal agencies a new way to pay for commercial goods and services as well as travel
and fleet-related expenses. The GSA SmartPay program is intended to allow Federal
employees to do their jobs more efficiently. The GSA SmartPay contracts are effective
from November 30, 1998 through November 29, 2003, with five 1-year options to renew.
Awards were made to five service providers: Citibank VISA, Bank One, Mellon Bank,
Bank of America, and U.S. Bank. The Social Security Administration (SSA) has elected
to use Citibank VISA as its vendor for the SmartPay program. The SmartPay program
is administered in two categories: travel and Government purchases.

Travel Card Program

Under the Travel Card Program, Federal employees who travel are issued travel charge
cards to use for official travel, as required under the Federal Travel Regulation.1 The
contractual relationship is between the employee and Citibank. SSA reimburses the
employee for travel expenses, and it is the employee’s responsibility to pay Citibank. In
Fiscal Year (FY) 2000, there were about 29,300 cardholders with total charges of
$25,003,959. In FY 2001 there were approximately 28,700 cardholders with total
charges of $36,929,554.

SSA provides training for new employees on the appropriate use of the travel card.
Also, SSA has several controls to monitor the program’s effectiveness and to identify
potential misuse of the travel card. For example, SSA has established with Citibank a
$10,000 charge limit and a $1,300 limit on automated teller machine (ATM) withdraws.
SSA also uses merchant blocking, which permits only certain types of purchases, such
as air/rail transportation, lodging, meals, and parking. Also, Citibank suspends cards of
individuals who have not paid for charges after 66 days, cancels cards that are
120 days past due, and cancels cards that have unauthorized use.

SSA also monitors the employee’s payments to Citibank. When an employee’s travel
card account becomes delinquent,2 SSA sends notification to the cardholder to pay the
delinquent account. In addition, the appropriate Deputy Commissioner and the travel
authorizing official are informed of the delinquency. The delinquency letter is placed in
the employee’s personnel file for 1 year. According to SSA, these letters have been
effective in getting employees to repay their delinquent accounts.




1
    41 CFR part 301-51, et al.
2
    An account is considered delinquent when it is not paid within 60 days.


SSA’s SmartPay Program (A-13-02-22059)                                                      1
Purchase Card Program

Under the Government Purchases Program, some employees have acquisition authority
to make small purchases for SSA. The contractual relationship is between SSA and
Citibank. In FY 2000, there were about 3,700 cardholders with total actual payment
purchases of $50,008,521, and, in FY 2001, there were approximately
3,800 cardholders with total purchases of $50,765,086.

SSA provides training for new cardholders and approving officials. SSA is providing
refresher training for current cardholders that must be completed by
November 30, 2001. SSA has controls to monitor the program’s effectiveness and to
identify potential misuse of Government purchase cards. Some of these improvements
were the result of an audit report we issued in June 2000. For example, SSA requires
the approving official to monitor purchase card activity by reviewing each cardholder’s
monthly activity statement and to question purchases that appear inappropriate. Other
controls include limiting purchases to $2,5003 per transaction per day, monthly
exception routines to identify split orders to stay within the $2,500, merchant blocking,
and word searches for certain descriptions of purchases that appear inappropriate.
Finally, SSA’s Office of Acquisition and Grants performs periodic internal quality reviews
to assess compliance with procedures.




3
    According to SSA, there are about 100 cardholders with purchase authority over $2,500.


SSA’s SmartPay Program (A-13-02-22059)                                                       2
                                                 Results of Review
On September 24, 2001, Senator Charles E. Grassley, Ranking Minority Member,
Senate Finance Committee, sent a letter to the Inspector General of SSA requesting
that the Office of the Inspector General (OIG) communicate its evaluative experience
with the SmartPay program at SSA. Senator Grassley made this request in light of
recent reports that the Government is paying for Federal employees’ personal
purchases made through the unauthorized use of Government charge cards.
Senator Grassley specifically requested information in the following areas.

1. Any information regarding instances of employees who have been
   investigated and disciplined for misusing their government
   purchase and travel cards. Please include a full description of
   each instance of misuse/abuse and the resulting disciplinary
   action.
According to SSA, there were 112 instances of Government charge card misuse in FYs
2000 and 2001. The disciplinary action ranged from a reprimand to the employee’s
termination. Appendix A contains a full description of each case.

   Purchase Card          Travel Card Misuse            Disciplinary Action
      Misuse
                                                  Ø Removal
        2 cases                                   Ø 30 day suspension
                                                  Reprimand to termination of
                               110 cases          employee

2. Details of audits and investigations you have conducted regarding
   the use of SmartPay accounts, along with copies of any reports
   you have written as a result of such activities.
In June 2000, we issued an audit report, Review of the Social Security Administration’s
Internal Controls over International Merchant Purchase Authorization Card Payments
(A-13-97-91018). In this audit, we identified the following internal control weaknesses in
the Government purchase card process:

      Ø   incidences in which required purchase logs were not always maintained;
      Ø   purchase documentation was insufficient;
      Ø   management approval missing;
      Ø   separation of duties not enforced;
      Ø   unauthorized individuals given purchase card access;
      Ø   split purchases made;


SSA’s SmartPay Program (A-13-02-22059)                                                   3
      Ø purchase descriptions inaccurate; and
      Ø budget approval not obtained.

We believe these internal control weaknesses increase the potential for fraud, waste
and abuse in connection with Government charge card purchases as well as hindering
SSA’s ability to detect such actions. To strengthen Government charge card purchase
internal controls, we made 10 recommendations to SSA. SSA generally agreed with
our recommendations. Appendix B contains a copy of the audit report.

Our Office of Investigations investigated four cases of Government charge card misuse
in FYs 2000 and 2001. The disciplinary action ranged from a 7-day suspension to
incarceration. Appendix C contains a full description of each investigation.

   Purchase Card          Travel Card Misuse           Disciplinary Action
      Misuse
                                                  Ø 30 day suspension;
                                                  Ø 6 days’ incarceration;
                                                    probation and restitution of
        2 cases                                     $8,096
                                                  Ø 7 day suspension;
                                2 cases             employee resignation

3. Details of audits and investigations you plan to conduct regarding
   the use of SmartPay accounts.
We will continue to track SSA’s progress in implementing our prior recommendations to
improve the controls over Government purchases. We have no planned audits of SSA’s
travel card program because of the low incidence of misuse (55 cases/year for
approximately 29,000 cardholders). In addition, individual cardholders are obligated to
pay Citibank for travel card expenses and are therefore not a debt to the Government.

We have one open investigation; however, the results are not available. We will
continue to monitor the SmartPay program by quickly responding to all allegations of
fraud and misuse.

4. Any recommendations you have for correcting program
   weaknesses.
We have no new recommendations at this time for correcting program weaknesses.




SSA’s SmartPay Program (A-13-02-22059)                                                  4
                                                         Conclusion
The SmartPay program is intended to allow Federal employees to do their job more
efficiently. However, there are risks associated with the use of Government charge
cards. Our prior audit of SSA’s Government purchase card program has shown there
are internal control weaknesses that increase the potential for fraud, waste, and abuse.
We are encouraged that SSA generally agreed with our findings and recommendations.
SSA’s corrective actions, if properly implemented, should significantly improve SSA’s
internal controls over the use of Government purchase cards. SSA’s travel card
program has a low incidence of misuse, and travel card charges do not result in a debt
to the Government. Although we have no planned audits of SSA’s travel card program,
we will continue to monitor incidences of potential misuse.




SSA’s SmartPay Program (A-13-02-22059)                                                 5
                                 Appendices
  Appendix A –Instances of Government Charge Card Misuse

  Appendix B – Review of the Social Security Administration’s Internal
               Controls over International Merchant Purchase
               Authorization Card Payments (A-13-97-91018), June 2000

  Appendix C – OIG Investigations of Government Charge Card Misuse

  Appendix D – OIG Contacts and Staff Acknowledgements




SSA’s SmartPay Program (A-13-02-22059)
                                                               Appendix A

Instances of Government Charge Card Misuse
Summary by SSA Region


    Region                    Travel Card      Purchase Card

    Boston                               14
    New York                             30
    Philadelphia                         17
    Atlanta                               5
    Chicago                               7
    Dallas                                4
    Kansas City                           3
    Denver                                0
    San Francisco                        12
    Seattle                               6
    Headquarters                         12          2

    Total                                110         2




SSA’s SmartPay Program (A-13-02-22059)                                 A-1
Boston Region

The Boston region reported 14 cases of misuse of Government charge card. Of those, nine were
not related to Government authorized travel.

                          Boston Region Charge Card Data for FY 2000

OFFENSE
EMPLOYEE FAILED TO TIMELY PAY GOVERNMENT-RELATED TRAVEL CARD
EXPENSES OR TRAVEL ADVANCES

    $ Amount      How Discovered                       Disposition/ Remarks
      $1,600.00 Credit Card Report   Counseling-late payment
      $4,000.00 Credit Card Report   Counseling-late payment
        $102.00 Credit Card Report   Counseling-late payment
        $900.00 Credit Card Report   Counseling-late payment
      $1,400.00 Credit Card Report   Counseling-late payment

Total No. Cases: 5


OFFENSE
IMPROPER USE OF CHARGE CARD WHERE EMPLOYEE USED VISA CARD TO
PURCHASE SOMETHING NOT RELATED TO AUTHORIZED GOVERNMENT TRAVEL

    $ Amount      How Discovered                         Disposition/ Remarks
      $1,000.00 Credit Card Report   Counseling-used for other expenses while on official travel
        $300.00 Credit Card Report   Counseling-fixed his personal vehicle, in assoc. w/ official
                                     travel. May decide to de-activate card, pending decision.
       $190.00 Credit Card Report    Counseling-paid for spouse's dinner while on official travel
       $400.00 Credit Card Report    Reprimand-initially counseled, then used card for 3 months
                                     to pay for personal bills.
     $2,100.00 Credit Card Report    Reprimand and 120 day letter. Employee used for personal
                                     reasons, additionally, was late in making payments.
       $900.00 Credit Card Report    Counseling and deactivation of card. Used to pay rent.
        $50.00 Credit Card Report    Counseling- expenses to personal vehicle while in travel,
                                     not associated with official business.
     $1,000.00 Credit Card Report    Counseling- personal use on weekend to take side trip while
                                     on official travel.
       $600.00 Credit Card Report    Counseling - used ATM1 for cash advance while not on
                                     official travel.

Total No. Cases: 9



1
    Automated Teller Machine


SSA’s SmartPay Program (A-13-02-22059)                                                       A-2
New York Region

The New York Region reported 30 cases of misuse of the Government charge card. Following is
the information provided.

·   Use of charge cards for unauthorized purchases: 8
·   Use of charge cards for unauthorized cash advances: 8
·   Number of employees involved: 30 for the following amounts: The amounts ranged from
    $21.96 to $9,582.92

Misuse and/or delinquencies come to the region’s attention based on the Monthly Activity
Reports and Delinquency Reports received from Citibank.

At least one employee was reprimanded, and at least four employees were suspended.

Philadelphia Region

The Philadelphia Region reported 17 cases of charge card misuse.
Following is a summary of the Philadelphia Region activity:

This does not accurately reflect the number of instances where there was misuse or failure to
repay a debt -- rather, this reflects the number of disciplinary or adverse actions taken based on
this type of activity.

Type of offense: 6 relate to Government-related travel, and 11 relate to non-Government related
travel issues. We are unable to ascertain the amount of money involved and how the misuse was
discovered because of the short turnaround time. In most cases, Citibank notifies SSA’s
Financial Management Team. However, there are certain timeframes involved with various
follow-ups, etc.

Of the 17 cases noted above, SSA reprimanded 5 employees, and suspended 12. Suspensions
were: 3 days (2); 5 days (2); 10 days (3); 14 days (1); 20 days (1); 30 days (1); and 45 days (2).




SSA’s SmartPay Program (A-13-02-22059)                                                          A-3
Atlanta Region

The Atlanta region reported five cases of misuse of the Government charge card. All five cases
involved charges and/or cash advances related to authorized Government travel and unrelated to
Government travel.

1. The employee failed to promptly pay $1,702. Another employee reported this to the District
   Manager. The employee was reprimanded, and the card was deactivated.

2. The employee failed to pay a delinquent balance of $10,000 in cash advances that were not
   work-related. The employee served a 7-day suspension and is making payments through
   payroll deductions.

3. The employee failed to pay a delinquent balance of $14,000. Her checks were returned due
   to insufficient funds. The employee was identified on the delinquent account listing for the
   Atlanta region. She was reprimanded.

4. The employee failed to promptly pay $16,691.05. The misuse was discovered on the
   scheduled regional office review. The employee served a 7-day suspension.

5. The employee failed to pay $15,000. This was discovered on the delinquent account list. In
   addition, the employee was directing Social Security benefit checks to her personal bank
   account and was using the funds to help pay off her Government charge card The employee
   resigned.




SSA’s SmartPay Program (A-13-02-22059)                                                       A-4
 Chicago Region

 The Chicago region reported seven cases of misuse of the Government charge card unrelated to
 authorized Government travel.

                          Charge Card Abuse Cases: Chicago Region

Offense Type         Amount      How Discovered       Disposition   Description of Misuse

Late Payment and     $2,561      Regional Office      Reprimand     Improper ATM withdrawals.
Not Travel-Related               Review of Citibank                 Employee entered into and was
                                 Account Cycle                      complying with late payment
                                 Report                             agreement with Citibank.


Late Payment and     $3,214      The employee self-   Reprimand     Employee charged hotel rooms
Not Travel-Related               reported                           while evading ex-husband who
                                                                    was stalking her.

Late Payment and
Not Travel-Related   $1,444      Regional Office      1-Day         Improper ATM withdrawals
                                 Review of Citibank   Suspension    and personal purchases.
                                 Account Cycle
                                 Report
Late Payment and
Not Travel-Related   $3,498      Regional Office      1-Day         Improper ATM withdrawals.
                                 Review of Citibank   Suspension
                                 Account Cycle
                                 Report
Not Travel-Related
                     $4,228      Regional Office      1-Day         Improper ATM withdrawals.
                                 Review of Citibank   Suspension
                                 Account Cycle
                                 Report
Late Payment and
Not Travel-Related   $6,148      Regional Office      1-Day         Improper ATM withdrawals
                                 Review of Citibank   Suspension    and personal purchases. Out of
                                 Account Cycle                      total delinquent amount, $854
                                 Report                             was for travel-related expenses
                                                                    for which employee had been
                                                                    reimbursed.
Late Payment and
Not Travel-Related   $5,051      Regional Office      10-Day        Improper ATM withdrawals
                                 Review of Citibank   Suspension    and misrepresentations to
                                 Account Cycle                      supervisor re: payment.
                                 Report                             Employee later failed to comply
                                                                    with terms of repayment
                                                                    agreement. Employee is a
                                                                    management official.




 SSA’s SmartPay Program (A-13-02-22059)                                                      A-5
Dallas Region

The Dallas region reported four cases of misuse of the Government charge card for authorized
travel.

1. The employee failed to promptly pay Government-related travel expenses. Citibank reported
   the past due accounts to Financial Management. Management counseled the employee in
   July 2000 about $578.73 past due and again in November 2000 for still owing $295.15.
   Citibank accepted a post-dated check dated December 26, 2000 for the remainder, which was
   inadvertently returned marked "account closed." Citibank indicated it tried several times
   with no success to contact employee. The employee was reprimanded in July 2001 while
   still owing $148.77.

2. The employee failed to promptly pay Government-related travel expenses. Citibank reported
   the delinquent account to Financial Management. There was an outstanding balance of
   $6,108.88. The employee only paid $1,850.04 of the total bill. Management counseled the
   employee in March 2001. The employee agreed to pay the balance by April 5, 2001, but, on
   April 12, the employee admitted he did not have the money and stated he would get a
   personal loan. The manager then received a second notice about the delinquency and
   counseled with the employee again on April 23, 2001. The account remained unpaid, and the
   employee was terminated during probation on May 7, 2001 for this and for unacceptable use
   of unscheduled leave.

3. The employee failed to promptly pay Government-related travel expenses. The delinquent
   account Citibank reported to Financial Management had a past due amount of $489.41 (is
   now paid). Proposing a 2-day suspension for not paying promptly (delay of 8 months) and
   misrepresenting facts to a supervisor on efforts to pay debt.

4. The employee failed to promptly pay Government-related travel expenses. Citibank reported
   the past due account to Financial Management. The employee incurred a $10,000 debt and
   subsequently signed a statement in April 2001 that she would pay $5,000. By May 31, 2001,
   the employee had only paid $1,900. The employee was suspended for 5 days on
   September 10, 2001 and advised that continued failure to pay could result in further
   disciplinary action.




SSA’s SmartPay Program (A-13-02-22059)                                                     A-6
Kansas City Region

The Kansas City region reported three cases of misuse of the Government charge card. Of those,
one was not related to Government-authorized travel.

1. The employee failed to promptly pay credit card charges not related to Government business.
   Citibank reported the past due account to Financial Management. The employee was
   reprimanded in August 2001 for failure to pay $262.42.

2. The employee failed to promptly pay Government-related travel expenses. Citibank reported
   the past due account to Financial Management. The employee was reprimanded in July 2001
   for failure to pay $2,244.57. The employee served a 14-day suspension in September 2001
   for failure to pay $2,244.57.

3. The employee failed to promptly pay Government-related travel expenses. Citibank reported
   the past due account to Financial Management. The employee was reprimanded in
   November 2001 for failure to pay $2,375.93. The employee served a 10-day suspension in
   April 2001 for failure to pay $2,375.93.

Denver Region

The Denver region reported no cases of Government charge card misuse for the last 2 years.


San Francisco Region

The San Francisco region reported 12 cases of misuse of the Government charge card. Of those,
two were not related to Government-authorized travel, and three involved both authorized travel
and personal purchases.

Case 1

1. The employee failed to pay her debt to AMEX and Citibank VISA. In addition, she
   withdrew $580 in cash on her Citibank VISA card and charged a rental U-Haul truck for non-
   Government business.

2. In each case, the amount of money involved $650 (AMEX) and $740 (Citibank VISA).

3. The Regional Financial Management Team called the Manager after AMEX and VISA
   reported that the balance was several months overdue.

4. The employee was issued a 5-day suspension. The suspension was placed in abeyance, and
   the employee agreed to repay the balances via a payment plan.




SSA’s SmartPay Program (A-13-02-22059)                                                       A-7
Case 2

1. The employee failed to pay the Government Citibank VISA promptly and used the VISA
   card to purchase personal items (that is, tires and several personal long distance calls) while
   on business travel/training.

2. The amount of money involved: $906.73

3. The Regional Financial Management Team informed the manager after VISA reported the
   balance was 30 days overdue.

4. A proposal to suspend the employee for 7 days was issued. The deciding official mitigated
   the penalty to a 1-day suspension because the employee was remorseful and accepted full
   responsibility for his misconduct.

Case 3

1. The employee made ATM cash withdrawals not related to Government travel that were not
   promptly paid. The employee made several ATM cash withdrawals and incurred charges to
   Mirage Hotel and Squire Motor Inn. The situation was discussed with the employee. The
   employee said the bill was paid, but the check used for payment bounced. A $10.00 fee was
   charged to the account.

2. Money involved: $1,653.31

3. The Regional Travel Card Program Coordinator called the manager after Citibank reported
   inappropriate charges and withdrawals.

4. The employee agreed to alternative discipline – a 2-day suspension.

Case 4

1. The employee was charged with failure to promptly pay Government-related travel expenses.
   The outstanding balance is over 90 days past due.

2. Money involved: $3,142.31

3. The Team Leader, Financial Management Team, called the manager after Citibank reported
   the balance was several months overdue.

4. The employee was issued a 10-day proposed suspension. There has not been a decision
   made on this case. The decision is still pending.




SSA’s SmartPay Program (A-13-02-22059)                                                          A-8
Case 5:

1. The employee was charged with failure to promptly pay Government-related travel expenses.
   The balance has been outstanding since 1999.

2. Money involved: $385.00

3. The Regional Travel Card Program Coordinator called the manager after the Citibank
   reported the balance was several months overdue.

4. The employee was issued a 7-day proposed suspension. There has not been a decision made
   on this case. It is still pending.

Case 6

1. Employee falsified travel vouchers and used the Citibank charge card to make inappropriate
   transactions.

2. Money involved: over $10,000

3. The Financial Management Officer called the manager.

4. The employee was removed.

Case 7

1. The employee made cash withdrawals and charges not related to Government travel that
   were not paid promptly.

2. Money involved: 140.03

3. The Financial Management Office called the manager.

4. The employee was issued a written reprimand.

Case 8

1. The Employee failed to promptly pay Government-related travel expenses.

2. Money involved: $491.26

3. The Travel Management Coordinator contacted the manager.

4. The employee was issued a 14-day suspension, which was held in abeyance with a signed
   agreement to repay.




SSA’s SmartPay Program (A-13-02-22059)                                                     A-9
Case 9

1. The employee used his Government travel card in three circumstances. The first was for
   charges/withdrawals made while on travel covered by a travel order. The second was for
   charges/withdrawals made while traveling under approved official time but without a travel
   order. The third was for charges/withdrawals made unrelated to any apparent travel. On
   most of the trips, the employee withdrew on a daily basis more than the allowed amount for
   the entire trip on a daily basis while on travel.

2. Money involved: $9,110.42

3. The Financial Management Team discovered the misuse and reported it to management.

4. The employee was suspended for 10 days.

Case 10

1. The employee used his Government travel card while on authorized travel during training.
   The employee filed his vouchers timely for repayment, but he failed to promptly pay his bill.

2. Money involved: $5,338.87

3. The Financial Management Team discovered the misuse and reported it to management.

4. The employee' s appointment was terminated.

Case 11

1. The employee used her Government travel card while on authorized travel during training.
   The employee filed her vouchers timely for repayment, but she failed to promptly pay her
   bill.

2. Money involved: $2,102.48

3. The Financial Management Team discovered this case and reported it to management.

4. The Employee signed a repayment agreement to repay $200 per pay period until the debt is
   repaid.




SSA’s SmartPay Program (A-13-02-22059)                                                      A-10
Case 12

1. The employee charged and made cash withdraws not related to Government travel and that
   were not promptly paid.

2. Money involved: $1,056.70

3. The Office of the Inspector General investigated because of falsified travel vouchers.

4. The employee was removed because of falsified travel vouchers, misused Citibank Travel
   Card, and absent without leave.

Seattle Region

The Seattle region reported six cases of unauthorized use of Government charge cards.

1. Unauthorized charges in relation to change in duty station
   Amount: $4,169.83
   How misuse discovered: Delinquent report
   Disposition: 15-day suspension per settlement agreement

2. Cash withdrawals and charges not related to Government travel
   Amount: $1,270.38
   How misuse discovered: Delinquent report
   Disposition: 3-day suspension

3. Cash withdrawals and charges not related to Government travel
   Amount: $4,300 (approx.)
   How misuse discovered: Delinquent report
   Disposition: 3-day suspension per settlement agreement

4. Cash withdrawals not related to Government travel and not paid promptly
   Amount: $1,781.77
   How misuse discovered: Delinquent report
   Disposition: 5-day suspension

5. Cash withdrawals and charges not related to Government travel and not paid promptly
   Amount: $4,274.28
   How misuse discovered: Delinquent report
   Disposition: removal (due to multiple charges including misuse of Government travel card)

6. Cash withdrawals and charges not related to Government travel; not paid promptly
   Amount: $3,799.57
   How misuse discovered: Delinquent report
   Disposition: 14-day suspension (because of multiple charges including misuse of
   Government travel card)



SSA’s SmartPay Program (A-13-02-22059)                                                      A-11
Headquarters

Headquarters reported 14 cases of unauthorized Government travel card and purchase card
charges.

Nature of Misuse                          Amount                 Action Taken

Travel Cards
Unauthorized cash withdrawals             $5,004.30              15-day suspension

Failure to pay travel expenses            $291.52                3-day suspension
Incurred although reimbursed
For expenses

Unauthorized cash withdrawals and         $2,083.74              Proposed 10-day suspension
charges

Unauthorized cash withdrawals and         $506.18                Proposed 3-day suspension
charges

Unauthorized cash withdrawals             $409.56                Proposed 3-day suspension

Unauthorized cash withdrawals             $410.57                5-day suspension

Unauthorized cash withdrawals             $1,241.84              7-day suspension

Unauthorized cash withdrawals             $2,514.38              Proposed 5-day suspension

Unauthorized cash withdrawals             $1,054.05              14-day suspension

Unauthorized cash withdrawals             $3,583.79              2-day suspension

Unauthorized cash withdrawals             $3,067.59              Terminated (probationary
                                                                 employee)

Unauthorized cash withdrawals             $1,621                 5-day suspension

Purchase Card
Unauthorized credit card purchase         $2,472                 Removal
(Laptop computer pawned)

Purchase Card
An employee was determined to have used his Government purchase card to purchase a
television, two small compact disk players, and some children’s computer software for personal
use. The case resulted from an anonymous complaint to the Office of the Inspector General.
The employee was suspended for 30 days as a result of a settlement agreement.



SSA’s SmartPay Program (A-13-02-22059)                                                      A-12
                                         Appendix B

Review of the Social Security Administration’s
Internal Controls over International Merchant
Purchase Authorization Card Payments
(A-13-97-91018), June 2000




SSA’s SmartPay Program (A-13-02-22059)
                             Office of the Inspector General


June 19, 2000

William A. Halter
Deputy Commissioner
 of Social Security

Inspector General


Review of the Social Security Administration’s Internal Controls over International
Merchant Purchase Authorization Card Payments (A-13-97-91018)


The attached final report presents the results of our audit. Our objective was to
determine whether the Social Security Administration’s internal controls provided
reasonable assurance that International Merchant Purchase Authorization Card
purchases were appropriately authorized and the processing and reporting of purchases
were complete, accurate, and properly classified.

Please comment within 60 days on corrective action taken or planned on each
recommendation. If you wish to discuss the final report, please call me or have your
staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
(410) 965-9700.




Attachment
          OFFICE OF
   THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   REVIEW OF THE SOCIAL SECURITY
     ADMINISTRATION’S INTERNAL
   CONTROLS OVER INTERNATIONAL
        MERCHANT PURCHASE
   AUTHORIZATION CARD PAYMENTS

   June 2000      A-13-97-91018
                                                         Executive Summary

OBJECTIVE
We determined whether the Social Security Administration's (SSA) internal controls
provided reasonable assurance that International Merchant Purchase Authorization
Card (IMPAC) purchases were appropriately authorized and the processing and
reporting of purchases were complete, accurate, and properly classified.

BACKGROUND
The IMPAC, a Federal credit card purchasing program implemented in 1982, was
designed to streamline Federal payment procedures, reduce paperwork, and lower the
administrative costs of purchasing supplies and services. IMPAC was originally a
manual process. However, the Office of Acquisition and Grants (OAG) automated this
process in October 1995, developing the Purchase Card Reporting System (PCRS) to
capture, process, and report transaction data. In June 1997, OAG developed a system
to ensure appropriate use of SSA’s IMPAC program. Additionally, SSA’s Office of
Operations reviews IMPAC transactions during its On-site Security Control and Audit
Reviews of field offices.

Since November 1998, the Citibank Corporation, as the contracted financial institution,
has issued IMPAC cards and provided related services to Federal cardholders. From
September 1, 1996, through November 30, 1997, SSA's 2,356 micro-purchasers
(authorized cardholders) made 99,734 IMPAC expenditures, totaling approximately
$33.9 million.

We audited 12 SSA cardholders: 4 from Headquarters and 8 from Philadelphia
(Region III). These cardholders purchased 2,428 items or services totaling
approximately $1.5 million from September 1, 1996, through November 30, 1997. We
conducted this audit from July through November 1998 at SSA Headquarters;
two field offices in Baltimore, Maryland; and six field offices in Harrisburg, Wilkes-Barre,
and Philadelphia, Pennsylvania. In October and November 1999, we revisited selected
cardholders to confirm that conditions noted during our initial reviews were still valid.

RESULTS OF REVIEW
Although SSA had established internal controls for IMPAC purchases, we found
implementation and adherence weaknesses. Of particular concern were incidences
where appropriate records/documentation were not maintained. Our specific
findings were as follows.




SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                              i
§   Required Purchase Logs Were Incomplete or Nonexistent

§   IMPAC Transactions Had Partial or No Required Documentary Evidence

§   Written Management Approval Was Not Always Obtained for IMPAC Purchases

§   Automated IMPAC Purchasing Procedures Did Not Provide for Separation of Duties

§   Unauthorized Individuals Were Allowed IMPAC Access

§   Split Purchases Were Used to Exceed IMPAC Spending Threshold

§   The PCRS Contained Insufficient or Inaccurate Information

§   IMPAC Purchases Were Made Without Evidence of Budget Approval

CONCLUSION AND RECOMMENDATIONS
To strengthen its internal controls over the IMPAC process, we recommend that
SSA:

§   Reinforce knowledge of policies and procedures on the maintenance of complete
    and accurate purchase logs so that IMPAC purchases are processed appropriately.

§   Require documentation procedures be incorporated into the Administrative
    Instructions Manual System in accordance with General Accounting Office (GAO)
    standards and those described in SSA’s Training Course. All cardholders should be
    required to comply with the established documentation procedures.

§   Reinforce knowledge of policies and procedures on the management approval of all
    purchase requisitions to confirm that purchases are appropriate and are for official
    Government purposes.

§   Require adherence to GAO and SSA micro-purchasing policies and procedures that
    require separation of duties. For example, reinstitute the requirement for an
    authorizing official’s approval when certifying IMPAC purchases. Incorporate such
    micro-purchasing procedures in PCRS guidance as well as the Administrative
    Instructions Manual System.

§   Require proper recording and accounting of all expendable purchased items
    considered sensitive.

§   Require that only authorized cardholders be able to process IMPAC transactions.

§   Investigate all potential violations of purchase limitations to ensure appropriate
    IMPAC use.



SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                              ii
§   Require cardholders to provide adequate descriptions of purchased items to ensure
    the effectiveness of the PCRS monitoring system.

§   Establish an edit process in the PCRS to identify incorrect sub-object class codes.

§   Require appropriate budget approval and accounting classification of all IMPAC
    purchases as a means of maintaining proper fiscal control.

AGENCY COMMENTS

SSA generally agreed with our recommendations. However, SSA only agreed in part
with Recommendation 4. SSA plans to incorporate the PCRS process into Citibank's
Electronic Access System. The approving official's paper copy of the monthly statement
will continue to serve as the final step in the post-review certification process to ensure
the validity of the transactions made by his/her cardholders.

Also, SSA did not agree with Recommendation 9. SSA stated it is not possible to build
into the PCRS edits for incorrect codes. However, SSA has included an edit in PCRS
Version 4.2 to ensure that Common Accounting Numbers and sub-object class codes
used for each transaction are valid. Before the end of Fiscal Year 2000, SSA will
include in its micro-purchase Acquisition Management Reviews a verification process to
ensure the sub-object class code is correct.

OIG RESPONSE

We agree with SSA's plan to incorporate the PCRS process into Citibank's Electronic
Access System, which will enable the authorizing officials to review cardholder
transactions electronically. However, we continue to recommend that SSA
re-emphasize the authorizing official responsibility until the process with Citibank is fully
implemented. We also agree with SSA's modification of the PCRS to ensure that only
valid sub-object class codes are used for IMPAC transactions.




SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                               iii
                                                        Table of Contents
                                                                                                                     Page


INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

  Required Purchase Logs Were Incomplete or Nonexistent ..................................3

IMPAC Transactions Had Partial or No Required
Documentary Evidence ...........................................................................................4


  Written Management Approval Was Not Always Obtained for IMPAC
  Purchases.............................................................................................................5

  Automated IMPAC Purchasing Procedures Did Not Provide for
  Separation of Duties .............................................................................................6

  Unauthorized Individuals Were Allowed IMPAC Access ......................................7

  Split Purchases Were Used to Exceed IMPAC Spending
  Threshold .............................................................................................................7

The PCRS Contained Insufficient or Inaccurate Information ...................................8

  IMPAC Purchases Were Made Without Evidence of Budget Approval.................9

CONCLUSIONS AND RECOMMENDATIONS .....................................................10

APPENDICES

APPENDIX A - Agency Comments

APPENDIX B - Major Report Contributors

APPENDIX C - SSA Organizational Chart




SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)
                                                                  Acronyms


FO                     Field Office
GSA                    General Services Administration
IMPAC                  International Merchant Purchase Authorization Card
OAG                    Office of Acquisition and Grants
OMB                    Office of Management and Budget
PCRS                   Purchase Card Reporting System
SOC                    Sub-Object Class
SSA                    Social Security Administration




SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)
                                                                                        Introduction

OBJECTIVE
We determined whether the Social Security Administration's (SSA) internal controls
provided reasonable assurance that International Merchant Purchase Authorization
Card (IMPAC) purchases were appropriately authorized and the processing and
reporting of these purchases were complete, accurate, and properly classified.

BACKGROUND
The IMPAC, a Federal credit card micro-purchasing program implemented in 1982, was
designed to streamline Federal payment procedures, reduce paperwork, and lower the
administrative costs of purchasing supplies and services.1 Since November 1998, the
General Services Administration (GSA) has contracted with the Citibank Corporation to
issue the IMPAC and provide related services to Federal cardholders.2 From
September 1, 1996, through November 30, 1997, SSA's 2,356 micro-purchasers
located at Headquarters and field offices (FO) made 99,734 transactions, totaling
approximately $33.9 million.

Micro-purchasing was automated in October 1995 by the Purchase Card Reporting
System (PCRS) developed by the Office of Acquisition and Grants (OAG). The PCRS
enables cardholders nationwide to certify and update acquisition activity within 1 week
of notification by the contracted financial institution that a purchase has been posted.
The PCRS also allows for additional financial accounting information, including a
Common Accounting Number, sub-object class (SOC) code, and purchase description.
The PCRS eliminates the requirement that a cardholder send the paper Statement of
Account to SSA’s Office of Financial Policy and Operations.

In June 1997, OAG developed an oversight system for SSA’s micro-purchase card
program. The system identifies purchases that appear inconsistent with established
regulations and procedures, such as (1) purchase of prohibited or restricted supplies or
services,3 (2) orders split or divided to stay below the micro-purchase or delegated
dollar limit, (3) repeat purchases from the same vendor, and (4) inadequate PCRS
descriptions. Questionable purchase data are forwarded to the cardholder to verify and
to provide supporting documentation.

1
  The Federal Acquisition Streamlining Act of 1994, Public Law 103-355, 108 Stat. 3243 (1994), created a
new designation for Federal purchasing entitled “micro-purchasing,” an acquisition of supplies or services
(except construction), the aggregate amount of which does not exceed $2,500. Micro-purchases for
construction-related purchases are limited to $2,000.
2
 Before Citibank Corporation, the GSA contract was with Rocky Mountain Bankcard System, Inc., a
subsidiary of U.S. Bancorp.
3
    Prohibited or restricted refers to personal items or items that can be ordered in limited quantities.


SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                                                 1
SSA’s Office of Operations also includes a review of FOs’ IMPAC transactions as part
of its On-Site Security Control and Audit Review system. This Review system helps
determine whether FO managers have implemented internal controls required by SSA’s
Program Operations Manual System and Administrative Instructions Manual System
instructions as well as requirements governing SSA operations.

SCOPE AND METHODOLOGY
We reviewed prior Office of the Inspector General audits and examined IMPAC program
policies and procedures. We interviewed 12 SSA cardholders and their authorizing
officials and reviewed their internal controls to safeguard IMPAC use. Cardholders at
these sites had purchased 2,428 items or services, totaling approximately $1.5 million,
from September 1, 1996, through November 30, 1997. We selected the cardholders
based on travel proximity to Headquarters. We conducted site visits at SSA
Headquarters; two FOs in Baltimore, Maryland; six FOs in Harrisburg, Wilkes-Barre,
and Philadelphia, Pennsylvania. We conducted our work from July through November
1998. In October and November 1999, we revisited selected cardholders to confirm
that conditions noted during our initial reviews were still valid.

We conducted our audit in accordance with generally accepted government auditing
standards.




SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                         2
                                               Results of Review
SSA has established internal controls for IMPAC purchases. However, SSA needs to
improve implementation and compliance with these controls, particularly maintenance
of appropriate records and documentation.

Required Purchase Logs Were Incomplete or Nonexistent
Cardholders are required to maintain a log of all purchases/services.4 At a minimum,
and regardless of format (electronic or paper), the log should include (1) purchase
order number, (2) date of purchase, (3) description of the item purchased, (4) vendor
name, (5) expected delivery date, and (6) delivery occurred.5

                           Although we did find 2 Headquarters cardholders maintained
Most Reviewed              complete purchase logs, the remaining 10 did not include
Cardholders Did            required information. Five cardholders had incomplete purchase
Not Fully Meet the         logs: two at Headquarters and three at FOs. The remaining
Purchase Log               5 FOs had no purchase log, and acquisition activity for
Requirements               approximately 1,160 (48 percent) of 2,428 PCRS entries could
                           not be tracked.

One cardholder at Headquarters who had incomplete purchase logs failed to post 721
(92 percent) of 784 transactions, not complying with the required minimum elements.
The other Headquarters cardholder failed to post 63 of 90 (70 percent) transactions
because of billing problems with the vendor.

In the 8 FOs with incomplete or no purchase logs, we found 376 of 697 transactions
not posted. During interviews, FO cardholders reported being unfamiliar with
procedures regarding purchase log maintenance. On average, FOs process relatively
few transactions a month, approximately six per office. We believe maintaining a
complete and accurate purchase log is neither a burdensome nor a highly complex task
relative to the small number of monthly transactions processed.




4
 Administrative Instructions Manual System Material Resources Handbook of Small Purchases, section
05.03, Required Acquisition Documentation. A purchase log is a sequential list of each micro-purchase
by purchase order number.
5
 SSA’s Micro-Purchasing in SSA Field Activities Training Course, module 8 – Purchase Files and
Documentation, section A, The Purchase Log, screen number 12. The cardholder checks off the delivery
occurred column when she/he is notified the items have been delivered.


SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                                        3
IMPAC Transactions Had Partial or No Required Documentary
Evidence
Documentation, whether in paper or electronic form, should be complete, accurate, and
facilitate tracing the transactions from inception to completion.6 In general,
documentary evidence should include (1) request documentation;7 (2) notes of
conversation with the vendor;8 (3) a copy of the payment document, if any, showing a
purchase has been made and has a zero balance due; and (4) proof of delivery, if any,
such as any delivery tickets and packing slip receipts issued by the vendor and given to
an individual other than the requester.

Nearly All Reviewed          For the four Headquarters cardholders, at least 99 percent
IMPAC Purchases Had          of all reviewed transactions, totaling $1,182,550, was either
No Available                 partially maintained or not maintained at all (see Table 1).
Documentation                One cardholder accounted for 1,035 (60 percent) of the
                             1,731 reviewed Headquarters’ transactions. Of these, only
2 transactions had complete documentation, 805 contained partial documentation, and
the remaining 228 were not documented at all. This cardholder was aware of the
required documentation procedures but did not comply with them, believing the
procedures were in conflict with the Vice President’s initiative on paperless processing.

       Table 1. IMPAC Documentation for Four Cardholders at Headquarters
          Required          Number            Percent
       Documentation           Of               of              Dollar
         Maintained       Transactions     Transactions        Amount
               All                             6                    0.4                 $6,783
             Partial                      1,385                   80.0                 970,107
              None                          340                   19.6                 212,443
              Total                       1,731                  100.0             $1,189,333
The remaining 696 transactions processed by the 3 other Headquarters cardholders
also showed a lack of understanding as to what constituted complete documentation.
They stated they were unfamiliar with relevant policies and procedures.

6
  General Accounting Office Policy and Procedures Manual for Guidance of Federal Agencies requires
that documentation be readily available for examination. Module 8 of SSA's micro-purchasing training
guide, Purchase Files and Documentation, also requires cardholders to keep documentation in support of
their IMPAC purchases.
7
 Request documentation may include what the cardholder was asked to purchase, for
whom, required delivery date, suggested source, justification, and prior purchase
approval.
8
 Notes of conversation with the vendor should include such information as the contacted individual’s
name, quoted price, and warranty information.


SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                                            4
We found the same pattern with the reviewed FO cardholders. As seen in Table 2, only
1 of the 697 transactions had all the required documentation. The remaining
696 transactions, totaling $297,358, had either partial documentation or none at all. FO
cardholders had differing viewpoints about the types of documentation they were
required to maintain. The lack of required documentation at both Headquarters and
FOs limited our ability to determine the validity of the purchase transactions.

         Table 2. IMPAC Documentation for Eight Cardholders at FOs
        Required            Number           Percent
     Documentation            Of                of            Dollar
       Maintained        Transactions     Transactions       Amount

             All                         1                0.1                $562

          Partial                     561                80.5             252,691

           None                       135                19.4              44,667
           Total                      697                 100            $297,920


Written Management Approval Was Not Always Obtained for IMPAC
Purchases
Office of Management and Budget (OMB) Circular A-123, Management Accountability
and Control Standards, for internal controls requires that supervisors provide their staffs
with necessary guidance and training. This instruction helps ensure errors, waste, and
wrongful acts are minimized and specific management directives are achieved.

                            Of the 2,428 IMPAC transactions processed by
60 Percent of IMPAC         12 cardholders, 1,448 (60 percent) were not approved by
Purchases Did Not           management in writing before the purchases were made.
Have Written                Eleven cardholders accounted for 480 (33 percent) of these
Management Approval         transactions not having written management approval, with
                            1 cardholder accounting for the remaining 968 (67 percent).
Cardholders and supervisors told us they had verbal management approval, but they
could provide no evidence of the approval. Without written approval, management does
not have an opportunity to confirm that purchases are appropriate and for official
Government purposes.




SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                             5
Automated IMPAC Purchasing Procedures Did Not Provide for
Separation of Duties
Before micro-purchasing was automated, the manual process had provisions for
separation of duties9 and allowed for supervisory review of all purchases,10 making it
more difficult for a cardholder to make unauthorized purchases without detection. There
was no provision in the PCRS requiring approving officials to certify the authenticity of
purchases. Cardholders were allowed to unilaterally certify their own purchases after
retrieving and reviewing the weekly PCRS transactions. According to OAG, the
approving official’s certification of PCRS transactions was excluded to make IMPAC
purchases easier for management use.

We believe this situation increases the potential for cardholders to make unauthorized
purchases without detection. For example, while we were tracing the disposition of
sensitive items 11 purchased by cardholders (as reflected in the PCRS), we found that
one cardholder could not locate a laptop computer listed for $1,340. After reviewing
available documents and interviewing staff, we determined the cardholder’s manager
did not approve the laptop purchase requisition. We also found (1) the description on
the purchase requisition did not match the description on either the invoice or the
PCRS; (2) the individual for whom the laptop computer was intended and who
supposedly made the request did not know about the purchase; (3) the invoice indicated
a different laptop computer brand name than was actually requested; and
(4) the laptop computer was not noted in the component's custodial official’s records of
sensitive, expendable items.12

This example illustrates what can happen when one individual authorizes, processes,
records and reviews a purchase transaction. Without effective checks and balances,
there is an increased risk of error, fraud, waste, or abuse when only one person controls
all key aspects of a transaction.




9
 OMB standards for management controls require that key duties and responsibilities be divided or
segregated among individuals to ensure they do not exceed or abuse their assigned authority (OMB
Circular A -123, II. Establishing Management Controls, Specific Management Control Standard,
Separation of Duties and Supervision).
10
  Administrative Instructions Manual System, Material Resources, chapter 6 – Acquisition, instruction
number 16, section 12, Approving Official (dated July 31, 1992).
11
  Sensitive items are considered those that are expensive and reportable, for example, laptop
computers, cellular phones, tape recorders, and cameras.
12
  We met with management to discuss the missing equipment and were told that every effort would be
made to recover the laptop computer. The cardholder told management the laptop computer could not be
located.


SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                                             6
Unauthorized Individuals Were Allowed IMPAC Access
                         SSA’s policy states the cardholder is responsible for IMPAC
Nearly One-Third of      card security and must prevent its use by others.13 Although
Reviewed FO              we found that 8 of 12 cardholders did not share their micro-
Cardholders Allowed      purchase cards, 4 cardholders at FOs did. For example, in
Others IMPAC Access      one FO, the cardholder’s responsibilities were inappropriately
                         delegated to an administrative assistant who was asked to
assume the role of micro-purchaser. We were told unauthorized individuals were
allowed IMPAC access because (1) the cardholder was not aware permitting others to
use the cards was problematic and (2) the FO needed to prioritize workloads (for
example, having to choose between assigning a person to process claims or make
IMPAC purchases).

To further corroborate our findings, we reviewed the IMPAC portion of 33 On-Site
Security Control and Audit Review reports conducted by SSA’s integrity staff. These
reports covered the same time frame as our audit. We found 10 incidences where
cards were accessible to individuals other than the cardholders. We also found that
unauthorized individuals made IMPAC purchases by telephone.

If a cardholder allows an unauthorized person access to the IMPAC, the authorized
cardholder is responsible for any purchases that unauthorized user makes. We believe
allowing cards to be used by unauthorized persons can potentially compromise the
integrity of the IMPAC process, creating situations for increased incidences of micro-
purchasing fraud, waste, and abuse.

Split Purchases Were Used To Exceed IMPAC Spending Threshold
Split purchases are made when procurements exceed a spending threshold and the
purchaser intentionally splits the procurement into smaller purchases. To test whether
cardholders made split purchases, we used the PCRS to list all transactions made on
the same day to the same vendor. From this list, we identified 203 transactions from
Headquarters. Of these, we identified eight as split purchases. We determined that
these split purchases were made because no SSA oversight existed to identify and
resolve them. These purchases were not authorized under IMPAC procedures, and the
cardholder should have forwarded them to a contracting officer who had authority to
procure above the $2,500 single purchase limit.14 By splitting purchases, cardholders
can exceed the $2,500 micro-purchasing limit, expediting the purchasing process,
circumventing the more complicated and laborious competitive bidding process and
exemption from the Federal Acquisition Streamlining Act of 1994.
13
  SSA Administrative Instructions Manual System, Material Resources, chapter 06 - Acquisition, instruction
number 16, section 05, Introduction. A cardholder may not redelegate his/her authorities or responsibilities,
and personnel cannot exercise any cardholder authorities when they are designated in an “acting” position and
no one can “sign for” the cardholder (SSA's Micro-Purchasing in SSA Field Activities Training Course, module
2 -Your Authority, section A, Nature of Acquisition Delegation, screen Number 1).
14
     Federal Acquisition Regulation, subchapter C, part 13 - Simplified Acquisition Procedures, subpart 13.003d.


SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                                                   7
The PCRS Contained Insufficient or Inaccurate Information
Cardholders are required to update the PCRS with each week’s purchase activity by
describing the product or service purchased. Also, as part of the certification process,
the cardholder inputs the applicable description of the items/services purchased and the
appropriate SOC data, as approved.

Over One-Third of           When we compared 2,428 purchase descriptions entered
Reviewed Transactions       into the PCRS against the documentation maintained by
Did Not Have Accurate       each cardholder, we found that 350 transactions did not
Purchase Descriptions       include sufficient information to determine the transaction’s
                            validity. In addition, we could not determine the accuracy
                            of descriptions for another 476 transactions because
documentation was not available for review. Cardholders informed us the purchase
descriptions were not accurate because they did not follow the policy guidance OAG
provided.15

Because OAG relies on complete purchase descriptions to identify purchases that
appear inconsistent with established regulations and procedures, it is imperative that
cardholders give correct and accurate purchase descriptions. Without these, OAG’s
capability to fully monitor IMPAC spending is restricted.

                           We also discovered problems with SOC coding. In our
No Edit Processes
                           review of one cardholder at Headquarters, we found the
to Ensure Assignment
                           same SOC had been charged for all items/services
and Entry of
                           purchased during our review period. Of the cardholder’s
Correct SOCs
                           1,035 transactions, 417 (40 percent), totaling $253,107,
                           contained incorrect SOC codes. We believe these
transactions should have been allocated among 21 other SOC codes rather than
charged to the same SOC. Additionally, for the eight FO components, approximately
11 percent of the SOCs did not match the items purchased. There was no edit process
to prevent cardholders from either deliberately or accidentally entering incorrect SOCs
into the PCRS. By incorrectly recording purchases under the wrong SOC,
management’s ability to maintain accurate accounting and budgetary data is
compromised.




15
   SSA’s policy on providing purchase descriptions is found in its training manual, SSA’s Micro-
Purchasing in SSA Field Activities Training Course, module 11 – Rules on Use of the Purchase Card,
section C, Statement of Account, screen number 43. It informs the cardholder that s/he is responsible for
providing a brief description of the purchase rather than a general description, such as miscellaneous
office supplies.


SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                                           8
IMPAC Purchases Were Made Without Evidence of Budget Approval

                            SSA’s Micro-Purchasing in SSA Field Activities Training
Nearly Two-Thirds of        Course states cardholders cannot make a purchase without
Sample Did Not Have         assurance that funds are available. Although the Training
Appropriate Budgetary       Course recommends the use of electronic mail procedures
Approval                    for budget review and approval of micro-purchase requests,
                            we found no evidence that our sampled cardholders were
using this process. They did not consistently provide documentary evidence of budget
approval for transactions completed during our review period.16

At Headquarters, reviewed cardholders were responsible for 1,731 transactions totaling
$1.2 million. Of these, 1,099 (63 percent), totaling $582,488, had no evidence of
budgetary approval. Cardholders did not obtain approvals because Common
Accounting Number and SOC financial data had not been assigned to purchased items.


For the reviewed FOs, we found similar results. Of 697 transactions totaling $297,920,
419 transactions (60 percent), totaling $132,252, did not have appropriate budgetary
approval. In contrast to Headquarters cardholders maintaining evidence to support their
budgetary approval for purchased items/services, the FOs had no formal budget
approval process. FOs confirmed their expenditures by checking against their budget
allocations provided by their regional offices. As a result, for the FOs, we could not
determine whether there was appropriate budget approval granted or the cardholder
had exceeded budget limitations. Regardless of location (Headquarters or FO), we
believe cardholders will continue to process micro-purchases without obtaining the
required budgetary approval unless management conducts ongoing reviews to ensure
documentation for budgetary approval is obtained.




16
  Funding approval should be accomplished by routing the purchase request through the cardholder’s
budgetary approving official. The budgetary approval process involves checking Common Accounting
Number and SOC codes to ensure that funds are available for specific items requested. Headquarters
and field components can use various purchase request documents to obtain budgetary approval.


SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                                          9
                                                  Conclusions and
                                                 Recommendations
We found numerous internal control weaknesses in the IMPAC micro-purchasing
process. These included incidences in which required purchase logs were not always
maintained, purchase documentation was insufficient, management approval missing,
separation of duties not enforced, supervisory reviews not conducted, unauthorized
individuals given IMPAC access, split purchases made, purchase descriptions
inaccurate, and budget approval not obtained. We believe these internal control
weaknesses increase the potential likelihood for fraud, waste and abuse in connection
with IMPAC purchases, as well as hindering SSA’s ability to detect such actions.

To strengthen IMPAC internal controls, we recommend that SSA:

1. Reinforce knowledge of policies and procedures on the maintenance of complete
   and accurate purchase logs so that IMPAC purchases are processed appropriately.

2. Incorporate documentation procedures the Administrative Instructions Manual
   System in accordance with General Accounting Office standards and those
   described in SSA’s Training Course. All cardholders should be required to comply
   with the established documentation procedures.

3. Reinforce knowledge of policies and procedures on the management approval of all
   purchase requisitions to confirm that purchases are appropriate and are for official
   Government purposes.

4. Require adherence to General Accounting Office and SSA micro-purchasing policies
   and procedures that require separation of duties. For example, reinstitute the
   requirement for an authorizing official’s approval when certifying IMPAC purchases.
   Incorporate such micro-purchasing procedures in PCRS guidance as well as the
   Administrative Instruction Manual System manual.

5. Require proper recording and accounting of all expendable purchased items
   considered sensitive.

6. Require that only authorized cardholders be able to process IMPAC transactions.

7. Investigate all potential violations of purchase limitations to ensure appropriate
   IMPAC use.

8. Require cardholders to provide adequate descriptions of purchased items to ensure
   the effectiveness of the PCRS monitoring system.



SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                             10
9. Establish an edit process in the PCRS to identify incorrect SOC codes.

10. Require appropriate budget approval and accounting classification of all IMPAC
    purchases as a means of maintaining proper fiscal control.

AGENCY COMMENTS

SSA generally agreed with our recommendations. However, SSA only agreed in part
with Recommendation 4. SSA plans to incorporate the PCRS process into Citibank's
Electronic Access System. The approving officer’s paper copy of the monthly statement
will continue to serve as the final step in the post-review certification process to ensure
the validity of the transactions made by his/her cardholders.

Also, SSA did not agree with Recommendation 9. SSA stated it is not possible to build
into the PCRS edits for incorrect codes. However, SSA has included an edit in PCRS
Version 4.2 to ensure that Common Accounting Numbers and SOC codes used for
each transaction are valid codes. Before the end of Fiscal Year 2000, SSA will include
in its micro-purchase Acquisition Management Reviews a verification process to ensure
the SOC code is correct.

SSA also provided other comments that we addressed. See Appendix A for the full text
of SSA’s comments.

OIG RESPONSE
We agree with SSA's plan to incorporate the PCRS process into Citibank's Electronic
Access System, which will enable the authorizing officials to review cardholder
transactions electronically. However, we continue to recommend that SSA
re-emphasize the authorizing official responsibility until the process with Citibank is fully
implemented. We also agree with SSA's modification of the PCRS to ensure that only
valid SOCs are used for IMPAC transactions.




SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)                               11
                                                              Appendix A

Agency Comments




SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "REVIEW OF THE SOCIAL SECURITY ADMINISTRATION’S (SSA)
INTERNAL CONTROLS OVER INTERNATIONAL MERCHANT PURCHASE
AUTHORIZATION CARD PAYMENTS" (A-13-97-91018)


Thank you for the opportunity to review and provide comments on
this draft report. We agree that SSA should strengthen its
International Merchant Purchase Authorization Card (IMPAC)
internal controls to ensure that credit purchases are valid;
proper and appropriately authorized; controls are in place to
prevent and/or discover waste or fraud; and budgetary restraints
are observed.

We offer the following comments.

OIG Recommendation 1

Reinforce knowledge of policies and procedures on the
maintenance of complete and accurate purchase logs so that IMPAC
purchases are processed appropriately.

SSA Comment

We agree. Although our current Administrative Instructions
Manual System (AIMS) and the computer-based training course
already specify this requirement, we will ensure that all new
purchase card related training and policy emphasize the need for
purchase logs.

OIG Recommendation 2

Require documentation procedures be incorporated into AIMS in
accordance with General Accounting Office (GAO) standards and
those described in SSA’s Training Course. All cardholders
should be required to comply with the established documentation
procedures.

SSA Comment

We agree and will incorporate into the appropriate AIMS
instruction the required documentation procedures before
September 30, 2000.

Cardholders have always been required to comply with these
procedures. However, as an improvement to our oversight efforts
and to expand the remote purchasing reviews we have conducted

SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)     A-2
for some time, we implemented on site Acquisition Management
Reviews of Headquarters micro-purchasers in April 2000. In
addition, as part of the regional office's Acquisition
Improvement Plans, some of the regional contracting officers
have begun on-site reviews in their respective regions.

OIG Recommendation 3

Reinforce knowledge of policies and procedures on the management
approval of all purchase requisitions to confirm that purchases
are appropriate and are for official Government purposes.

SSA Comment

We agree and will periodically issue appropriate reminders.
The first of these reminders will be issued by August 31, 2000.

OIG Recommendation 4

Require adherence to GAO and SSA micro-purchasing policies and
procedures that require separation of duties. For example,
reinstitute the requirement for an authorizing official’s
approval when certifying IMPAC purchases. Incorporate such
micro-purchasing procedures in Purchase Card Reporting System
(PCRS) guidance as well as the AIMS.

SSA Comment

We agree, in part, with this recommendation. We agree with the
need for separation of duties and for approving officials (AO)
reviewing the activity of their micro-purchasers. However, we
do not agree that this requirement must be in the PCRS.

The AO's paper copy of the monthly statement will continue to
serve as the final step of the post-review certification process
to ensure the validity of the transactions made by his/her
cardholders. In addition, to provide for a system of checks and
balances, we require a separation of duties when items are
received at the office. See Module 9, Inspection and Acceptance
of SSA’s Micro-Purchasing in SSA Field Activities training
course.

We plan to incorporate the PCRS process into Citibank's
Electronic Access System (EAS). This conversion would provide
EAS to all cardholders to certify their transactions and to the
AOs for the review process. The EAS would then eliminate the
"paper" statement of account and business account summary that

SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)      A-3
the bank is now mailing to the cardholders and AOs.

OIG Recommendation 5

Require proper recording and accounting of all expendable
purchased items considered sensitive.

SSA Comment

We agree. Within the next two months SSA will research this
issue and send an acquisition alert to all cardholders, which
will also include the information in the revised AIMS.

OIG Recommendation 6

Require that only authorized cardholders be able to process
IMPAC transactions.

SSA Comment

We agree. This policy is clearly specified in the AIMS as well
as training documents. The acquisition alert dated September
1998 reiterates that purchase cards are for the exclusive use of
the cardholder and certifications should be conducted by the
responsible cardholder only. We will periodically issue
acquisition alerts as reminders.

OIG Recommendation 7

Investigate all potential violations of purchase limitations to
ensure appropriate IMPAC use.

SSA Comment

We agree. We developed the Purchase Card Information System
and continue to use it to identify violations of limits (i.e.,
order splitting and restricted/prohibited purchases). Also, on
August 18, 1999, we revised the Purchase Card Information
System, permitting analysts performing acquisition management
reviews to more effectively tailor and manipulate data for more
efficient and focused remote reviews.

OIG Recommendation 8

Require cardholders to provide adequate descriptions of
purchased items to ensure the effectiveness of the PCRS
monitoring system.

SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)     A-4
SSA Comment

We agree. The current micro-purchase computer-based training
that was released to FOs in 1994 and to Headquarters
in March 1996 requires this kind of documentation. The PCRS
online instructions have included this requirement since we
released the program in October 1995. Additionally, last year
we posted an instruction manual that stresses the same
requirement.

We will issue periodic acquisition alerts as a reminder
stressing the need for entering adequate purchase descriptions
in the PCRS when cardholders purchase multiple items. We will
emphasize prioritizing them as to quantity, price or sensitive
items.

OIG Recommendation 9

Establish an edit process in the PCRS to identify incorrect
sub-object class codes (SOC).

SSA Comment

We disagree. It is not possible to build into PCRS            edits for
INCORRECT codes. However, we have included in PCRS            Version 4.2
an edit to ensure that the common accounting number           and
sub-object class code used for each transaction are           VALID codes.

Before the end of the fiscal year we will include in our micro-
purchase AMRs a verification process to ensure the SOC code is
correct. We will reemphasize the FACTS guidance in periodic
acquisition alerts.

OIG Recommendation 10

Require appropriate budget approval and accounting
classification of all IMPAC purchases as a means of maintaining
proper fiscal control.

SSA Comment

We agree and will explore possible ways to ensure that budget
approval is documented in the file. We believe the perceived
lack of budget approval is most likely a documentation
deficiency. In the interim, the Agency will emphasize the need
for such documentation when reviewing micro-purchase files.

SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)             A-5
Other Comments

BACKGROUND (Page 1)

We believe the first sentence should read: “…. program
authorized by Executive Order 12352 in 1982 and implemented in
SSA in 1988, was designed to streamline Federal acquisition and
payment procedures….”

The second sentence and footnote 2 should be reversed, since the
OIG audit involved the time period for IMPAC purchases under the
General Services Administration (GSA) contract with Rocky
Mountain Bankcard System, Inc. and not Citibank Corporation.

We would also like to point out that GSA awarded several
contracts to other financial institutions in 1998 for its new
GSA SmartPay Program. Agencies could choose, from these
contractors, the one who can best meet the agency's needs. SSA
chose Citibank Corporation, effective November 30, 1998, to
handle our purchase card program.

RESULTS OF REVIEW

Required Purchase Logs Were Incomplete or Nonexistent (Page 3)

The first paragraph states that the actual delivery date should
be included in the purchase log according to the micro-
purchasing course referred to in footnote 5. The course
requires that the purchaser keep a record of the fact that
delivery occurred. Therefore, we suggest that number 6 in the
second sentence read “delivery occurred” rather than “actual
delivery date.” Also, in footnote 5, the sentence should say,
“The cardholder checks off the “delivery occurred” column …”
(not the “delivery date” column).


Paragraph 3, second sentence needs to be clarified as follows:
“The other Headquarters cardholder failed to post 63 of 90 (70
percent) transactions because of billing problems with the
vendor.” Purchases should be recorded in the purchase log as
they are made. Each purchase is a transaction. Billing
problems are unrelated to the log. The number of billings that
result, including incorrect billings, etc., are not reflected in
the log. Therefore, billing problems should not justify a
cardholders failure to post any transactions.


SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)      A-6
IMPAC Transactions Had Partial or No Required Documentary
Evidence (Page 4)

The report states that “…(3) a copy of the payment document
showing a purchase has been made and has a zero balance due; and
(4) proof of delivery, such as any delivery tickets and packing
slip receipts issued by the vendor and given to an individual
other than the requester.”

To correctly summarize or quote the documentation requirement,
the report should be revised to say: “… (3) a copy of the
payment document, if any (this requirement only applies if the
purchase was made in person or if payment was made by third
party draft rather than by purchase card); and (4) proof of
delivery, if any. (This only applies if the vendor provides a
packing slip or other proof of delivery.)”

The words “if any” make “requirements” (3) and (4) optional.
Since very few purchases are made in person, it would be rare to
find any type of payment document in file. Also, the purchaser
cannot control whether the vendor provides proof-of-delivery
documents. Many vendors may not provide packing slips or, even
if provided, the person receiving the package may discard the
slip so that it is never provided to the purchaser.

In addition, Footnote 7 could be interpreted to mean that the
request documentation must include all the elements listed. We
suggest that Footnote 7 be changed to read as follows:

“Request documentation may include such things as what the
cardholder was asked to purchase, for whom, required delivery
date, suggested source, justification, and any approvals
obtained. If the purchaser is the requestor, it need only
include what it is that you are going to purchase.”


Management Approval Was Not Always Obtained for IMPAC Purchases
(Page 5)

At a minimum, we suggest the title of this section be rewritten
as: “Written Management Approval Was Not Always Obtained for
IMPAC Purchases.”

Our instructions to micro-purchasers do not state that written
management approval is required prior to making a purchase. We
only require that management approval be obtained. (Our training

SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)      A-7
says that the purchaser must follow the component’s internal
approval rules.) If management approves the items to be
purchased, whether verbally or in writing, management has had
the opportunity to confirm that the proposed purchases are
appropriate for official Government purposes.

Automated IMPAC Purchasing Procedures Did Not Provide for
Separation of Duties (Page 6)

Regarding the first paragraph, on February 17, 1995, while
purchase card transactions were still processed manually, SSA
eliminated the requirement for the paper statement of account to
be signed by both the cardholder and the cardholder’s approving
official (AO). Specifically, we eliminated the requirement for
the AO to sign the paper statement of account prior to it being
sent to the Office of Finance (OF). However, we retained the
requirement for the AO to review all purchases by cardholders.
This review was accomplished by reviewing the monthly Business
Account Summary. As stated in our February 17, 1995 message
(Acquisition Alert #95-2), “The BAS [Business Account Summary]
allows the AO [Approving Official] to review purchases by CHs
[cardholders] and provides monthly expenditure verification
reporting, and is an important part of the SSA system of checks
and balances. This report should be used by the AO as part of
the SSA system of controls to prevent fraud, waste or abuse.”

Prior to this change, FOs rarely used the purchase card. A
survey revealed that the requirement to send the paper
statement of account (and supporting documentation) to the AO
for sign-off prior to forwarding to OF was a major barrier to
purchase card use in SSA. The paper process for using the
purchase card was so cumbersome and time consuming that using a
third party draft or paper requisition was preferable for
purchases.

To date, AOs continue to receive monthly statement of accounts
directly from the purchase card bank and are required to review
these monthly statements. Thus, we cannot agree that the
current policy “increases the potential for cardholders to make
unauthorized purchases without detection.”

Unauthorized Individuals were Allowed IMPAC Access (Page 7)

Prior to May 1999, SSA’s policy that third party draft (TPD)
cashiers could not have purchase cards prevented them from
requesting purchase cards for their administrative assistants
and other lower-graded staff whom they called upon to make

SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)     A-8
purchases for the office. (Nearly all FO administrative
assistants have been appointed TPD cashiers along with service
representatives and others.)

SSA consulted with the Department of Treasury and on May 11,
1999 issued Acquisition Alert 99-08 to the field. This Alert
changed Agency policy allowing SSA TPD cashiers to also have
purchase cards. Since then a variety of communications have
been sent to the field encouraging managers to get purchase
cards for the individuals who are actually doing the purchasing
for the office.

Split Purchases Were Used to Exceed IMPAC Spending Threshold
(Page 7)

At the time of the audit, we did not have a quick means to
identify split purchases. Since then, however, we developed an
automated Purchase Card Information System (PIS). The PIS
produces a report of apparent split purchases. We use it when
we perform acquisition management reviews.

The PCRS Contained Insufficient or Inaccurate Information (Page
8)

Regarding the statement “Over One-Third of Reviewed Transactions
Did Not Have Accurate Purchase Descriptions.” One of the twelve
cardholders who were audited accounted for 60 percent of the
headquarters transactions (1,035 transactions reviewed).
It would be helpful if the report included statistics with and
without the transactions made by the one purchaser.

IMPAC Purchases Were Made Without Evidence of Budget Approval
(Page 9)

As in our comments above concerning page 8 of the report,
statistics excluding the one cardholder who accounted for more
than 60 percent of the headquarters transactions would prove
beneficial.

The second paragraph states that, “Cardholders did not obtain
[budgetary] approvals because common accounting number and
sub-object codes financial data had not been assigned to
purchased items.”   The report concludes that cardholders did
not obtain budgetary approvals because auditors saw no evidence
of common accounting number and sub-object class codes assigned
to the purchase somewhere in the file. Current training does
not require that either of these numbers be assigned at this

SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)      A-9
stage. The training says, “Budget approval involves checking
the CAN and SOC to ensure that the money is available for the
specific item or items being requested.” Therefore, the manager
must check his/her budget and look under the correct common
accounting number and object class in the budget.

In general, there are only a few object classes (usually 4) that
can apply to a purchase. For example, 2,600 represents
supplies. The other classes are printing, advisory and
assistance services, and equipment.

Since offices generally have only two common accounting numbers
(CAN) that apply to purchases (one for information technology
systems (ITS) and one for non-ITS), we see no need to require
the CAN to be written on each purchase request. It only needs
to be checked for funds sufficiency prior to purchase.

We believe that component budget staffs are following SSA
procedures and are providing budgetary approval prior to
purchase. Headquarters component budget offices and component
managers are not likely to tolerate significant micro-purchase
activity that bypasses budgetary controls.


It would be helpful if the report included explanations given by
the headquarters micro-purchasers as to when and how the
budgetary approval was accomplished. By not providing the
headquarters purchasers’ explanations of this apparent
deficiency, the report does not give a complete picture of the
operation of the headquarters micro-purchase program.

Regarding the third sentence: “FOs confirmed their expenditures
by checking against their budget allocations provided by their
regional offices

If the “confirming of expenditures” was done prior to purchase,
then this is a sufficient budget approval process. Based on the
above, we believe each statement that budgetary approval was not
obtained should be revised to say that there was no
documentation reflecting budgetary approval in the file.




SSA’s Internal Controls Over IMPAC Payments (A-13-97-91018)      A-10
                                                                       Appendix B

Major Report Contributors

Office of the Inspector General
   Shirley E. Todd, Director, General Management Audit Division

   Carolyn Neuwirth, Deputy Director, General Management

   Frank H. Williams, Jr., Auditor-in-Charge


   Steve Weal, Senior Auditor

   Mark C. Meehan, Senior Auditor

For additional copies of this report, please contact Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-13-97-91018.


                                         --END--




SSA’s Internal Controls Over the IMPAC Payments (A-13-97-91018)
                                                                       Appendix C

Office of the Inspector General Investigations of
Government Charge Card Misuse
Below are descriptions of cases worked by the Office of Investigations regarding the
misuse of Government issued charge card accounts.

Government Purchase Card

On November 3, 1997, the Office of the Inspector General Fraud Hotline forwarded an
anonymous complaint to the Office of Investigations. The complaint claimed that an
employee allegedly used his Government purchase card to make personal purchases.
The investigation uncovered purchases including a color television, a video cassette
recorder, portable compact disk players, and children’s educational computer software.
The employee initially denied making these purchases and falsifying a purchase
document to hide the purchase of the television. The Office of Investigations fully
investigated the matter, but, ultimately, the U.S. Attorney’s Office declined to prosecute
the case, and it was referred for administrative action. The investigation also
discovered that the employee may have violated the Federal Acquisition Regulation and
the Social Security Administration’s micropurchase policy, as delineated in the
Administrative Instructions Manual System (AIMS), which prohibits “split” procurements.
On at least three occasions, the employee had structured purchases to reflect amounts
less than his allowed maximum purchase authority. For example, on September 26,
1997, the employee placed an order for $9,945.75 in computer and computer-related
equipment. This order was split into four smaller orders of $2,490, $2,499, $2,475 and
$2,481.75 thereby avoiding the total single purchase limit. On December 22, 2000, the
employee was suspended for 30 days.

Government Purchase Card

From August to November 1999 an Office of Hearings and Appeals employee used a
Government purchase card to pay for a rental car for personal use. A routine review of
credit card charges revealed what appeared to be unauthorized and excessive charges
for a rental car on the account entrusted to the subject. The employee pled guilty to
conversion of Federal funds and resigned from her position. On August 15, 2000, she
was sentenced to 6 days' incarceration, 3 years’ probation, and $8,096 in restitution.




SSA’s SmartPay Program (A-13-02-22059)                                                 C-1
Government Travel Card

In May 2000, a SSA employee used his Government-issued Citibank VISA card for
personal automated teller machine withdrawals, airline tickets, and hotel reservations in
California. He allegedly suffered from mental illness (depression) and resigned from
SSA on June 1, 2000. The Assistant U.S. Attorney for the Western District of
Washington declined to criminally prosecute because of lack of criminal intent.

Government Travel Card

In May 2000, the Office of Investigations was contacted after a SSA quarterly review of
travel accounts identified a potential problem with a GS-15 employee’s Government-
issued Citibank VISA account. The review showed a balance of over $16,000, including
$9,513 as past due. The account record also showed several payments on the account
had been returned for insufficient funds. The balance included cash advances of
$10,778.50 from December 1999 though April 2000. During the Office of Investigations’
interview of the employee, he admitted that he had misused the Citibank VISA card. He
also admitted that he had been counseled by his superiors about prior misuses of
Government travel cards. He stated that his prior Government American Express travel
card had been misused, and, at one time, the card had been suspended because of
delinquent payments. According to the employee, that debt was eventually satisfied
through a collection agency. This employee also admitted that he was making cash
payments on personal loans to one individual that had interest rates of approximately
120 percent. The employee denied involvement in illicit habits or relationships and
claimed that his financial problems and debt were the result of living above his means.
The employee was suspended for 7 days and required to secure financial counseling
through the Employee Assistance Plan.




SSA’s SmartPay Program (A-13-02-22059)                                                C-2
                                                                      APPENDIX D
OIG Contacts and Staff Acknowledgments
OIG Contacts
   Shirley E. Todd, Director, General Management Audit Division (410) 966-9365

Acknowledgments
In addition to those named above:

   Jim Klein, Audit Manager

   Randy Townsley, Senior Auditor

   Tom Sipes, Special Agent-in-Charge

   Steve Cathcart, Assistant-Special-Agent-in-Charge

   Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at http://www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-13-02-22059.




SSA’s SmartPay Program
